SUPREME COURT OF THE UNITED STATES
No.

CERTIFICATE OF SERVICE

I, Rolando Cruz, Jr., hereby certify that on this 13th day of April, 2021,1 caused
one copy of the Petition for Writ of Certiorari to be served by U.S. Mail to the
United States Solicitor General at U.S. Department of Justice 950 Pennsylvania
Avenue, NW Washington, DC 20530-0001.

I further certify that all parties required to be served have been served.

Rolando Cruz, Jr.
Reg. No. 72198-067
USP CANAAN
U.S. PENITENTIARY
SMART COMMUNICATIONS
P.O. BOX 30
PINELLAS PARK, FL 33781

24

